                  The Earned Income Tax Credit Income
                 Verification Test Was Properly Conducted

                                     May 2005

                       Reference Number: 2005-40-093




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       May 27, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Earned Income Tax Credit Income
                                    Verification Test Was Properly Conducted (Audit # 200440050)


      This report presents the results of our review of the Earned Income Tax Credit (EITC)
      income verification test. The overall objective of this review was to determine whether
      the Internal Revenue Service (IRS) properly classified, selected, and processed test
      cases and accurately summarized and reported the results of the Fiscal Year (FY) 2004
      EITC income verification test. The income verification test was conducted in
      conjunction with the IRS Automated Underreporter (AUR) Program.1
      The EITC is a refundable tax credit designed to help move low-income working
      taxpayers above the poverty level. However, the credit has had historical compliance
      problems. The IRS estimated that between 27 and 32 percent of the $31 billion in EITC
      claimed on Tax Year 1999 returns should not have been paid.
      Beginning in FY 2004, the IRS tested three of the main concepts contained in its
      long-term vision for improving its EITC Program: certification of qualifying child
      residency requirements, verification of filing status, and verification of income. This
      audit is the fifth in a series of audits we have conducted to monitor the IRS’ testing of its
      long-term EITC vision.
      In summary, the EITC income verification test was designed to help the IRS identify
      ways to ensure taxpayers claiming the EITC properly report their income. Overall, the
      test met the IRS’ expectations. The IRS established several business objectives for the
      income verification test. To meet these objectives, the IRS developed specific business


      1
        The IRS AUR Program is a compliance program designed to verify the accuracy of income and various other items
      reported on a taxpayer’s return by matching the information on the return to information reported to the IRS by third
      parties.
                                                        2

rules to classify and select cases for the test. The IRS properly classified and
accurately selected cases for the test based upon these established business rules.
As of January 31, 2005, additional assessments totaling $248 million for about
213,000 taxpayers had been made because the EITC was either eliminated or reduced
during the income verification test.2 Additional taxes totaling about $130 million3
resulting from changes to the income reported by these taxpayers were also assessed.4
Assessments made during the test were accurate in 93 percent of the cases we
reviewed. The accuracy rate we identified is similar to that for the overall AUR
Program. We also evaluated the timeliness with which the IRS responded to taxpayer
correspondence and issued notices to taxpayers. The IRS timely corresponded with or
issued notices to taxpayers in 96 percent of the cases we reviewed.
The IRS also developed a new tool, the EITC AUR Case Tracking Report, to keep
management informed of interim test results. The Case Tracking Report was created
because information could not be obtained from the Enforcement Revenue Information
System (ERIS)5 used by the AUR Program until several months after the test started.
We evaluated the accuracy of the Case Tracking Report and identified some
inconsistencies. While these inconsistencies affected the interim tracking and reporting
of test results, the IRS will be able to use the ERIS, a more reliable source, to compile
and report the final results for the FY 2004 test. In addition, the IRS was able to
improve the ERIS and will no longer need to use the Case Tracking Report to track and
report interim results for the FY 2005 test.
We also verified that the IRS used the information it gathered from the FY 2004 test to
make several key changes to its FY 2005 test. These included modifying the selection
of cases to improve productivity, identifying and addressing the issue of stolen identity,
and separating certain self-employed taxpayers claiming the EITC into a segment that
will be worked separately.
Management’s Response: The IRS indicated it was taking a number of steps to reduce
erroneous EITC payments and was pleased the verification of income test has proven
so effective. The IRS was also pleased our review recognized verification of income
through the AUR Program as an effective enforcement tool that promotes compliance
and protects revenue. Management’s complete response to the draft report is included
as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or Michael R.



2
  In a small number of cases, the changes resulted in a higher EITC. The amount shown represents the net amount
of assessments resulting from the EITC being reduced or eliminated.
3
  This includes interest and penalties, if applicable, less any additional withholding due the taxpayers.
4
  In a small number of cases, the changes resulted in a lower tax liability. The amount shown represents the net
amount of additional taxes assessed.
5
  The ERIS is a cross-functional database that tracks the amount and timing of revenue from all IRS enforcement
actions.
                                          3

Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                                 The Earned Income Tax Credit Income
                                Verification Test Was Properly Conducted




                                             Table of Contents


Background ............................................................................................... Page 1
Cases Were Properly Classified and Accurately Selected
Based Upon Established Business Rules ................................................. Page 4
Cases Were Accurately and Timely Processed ........................................ Page 6
Problems Tracking and Reporting Interim Test
Results Were Resolved............................................................................. Page 8
Test Results Were Used in the Planning and
Implementation of the Fiscal Year 2005 Test ............................................ Page 9
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Treasury Inspector General for Tax Administration
and Government Accountability Office Reports on the
Earned Income Tax Credit Proof of Concept Tests ................................... Page 16
Appendix V – The Automated Underreporter Program Process................ Page 17
Appendix VI – Management’s Response to the Draft Report ................... Page 18
              The Earned Income Tax Credit Income
             Verification Test Was Properly Conducted

                       The Earned Income Tax Credit (EITC), enacted 30 years
Background
                       ago, is a refundable tax credit designed to help move
                       low-income working taxpayers above the poverty level. For
                       Tax Year (TY) 2003, the Internal Revenue Service (IRS)
                       reported that approximately 21.7 million taxpayers received
                       EITC totaling $38.1 billion. For TY 2004, taxpayers can
                       receive a credit as high as $4,300 depending upon their
                       income, filing status, and number of eligible children.
                       While this provides a significant benefit, the IRS has also
                       historically experienced compliance problems with this
                       credit. The most recent IRS study of EITC compliance
                       estimated that for TY 1999 between 27 and 32 percent of
                       the $31 billion in EITC claims should not have been paid.
                       A joint Department of the Treasury and IRS task force,
                       formed in February 2002 to study the administration of the
                       EITC, offered suggestions for improving compliance. The
                       IRS compiled these suggestions into a Concept of
                       Operations outlining its future vision for the EITC Program.
                       The first step in implementing this long-term vision was to
                       test several of the vision’s key concepts. Beginning in
                       Fiscal Year (FY) 2004, the IRS tested three of the main
                       concepts contained in its long-term vision.
                       •   Certification of Qualifying Child Residency
                           Requirements.
                       •   Verification of Filing Status.
                       •   Verification of Income.
                       The EITC Office, which is part of the IRS Wage and
                       Investment (W&I) Division, is responsible for the overall
                       administration of the EITC Program. This requires
                       coordinating with over 20 different IRS functions that
                       administer some portion of the EITC. This is the fifth in a
                       series of audits we have conducted to monitor the IRS’
                       testing of its long-term EITC Program vision. See
                       Appendix IV for a list of prior reports. This audit focused
                       on the income verification test.
                       The IRS identifies taxpayers that misreport their income
                       through an annual matching program known as the
                       Automated Underreporter (AUR) Program. The AUR
                       Program compares the information reported by third parties,

                                                                             Page 1
 The Earned Income Tax Credit Income
Verification Test Was Properly Conducted

          such as employers and banks, with what was reported by
          taxpayers on their individual income tax returns.
          An AUR Program case is created when the comparison of
          the tax return to the third-party information documents
          identifies a discrepancy between these two sources. Cases
          are categorized into 57 categories (wages, unemployment
          compensation, dividends, etc.). The categories are further
          subdivided into seven subcategories based upon the
          potential tax change. The AUR Program is administered by
          the Compliance functions in the W&I and Small
          Business/Self-Employed (SB/SE) Divisions and operates at
          six sites in IRS campuses.1 The 300,000 taxpayers in the
          income verification test were worked by the 3 W&I
          Division AUR Program sites.
                           Figure 1: IRS AUR Program Sites




          Source: Treasury Inspector General for Tax Administration analysis of
          IRS sites.


          1
           The campuses are the data processing arm of the IRS. The campuses
          process paper and electronic submissions, correct errors, and forward
          data to the IRS Computing Centers for analysis and posting to taxpayer
          accounts.
                                                                         Page 2
 The Earned Income Tax Credit Income
Verification Test Was Properly Conducted

          Tax examiners at the AUR Program sites initially analyze
          each case through a screening process to determine if the
          discrepancy can be resolved without contacting the
          taxpayer. If the discrepancy can be resolved in this process,
          no further action is taken and the case is closed. If the
          discrepancy cannot be explained, the IRS will send the
          taxpayer a notice asking for an explanation.
          In most cases, the first notice informs the taxpayer that what
          was reported on the tax return does not agree with what has
          been reported by third parties.2 The taxpayer is told to
          respond within 30 calendar days. If the taxpayer does not
          respond to the initial notice, the IRS issues a Statutory
          Notice of Deficiency advising the taxpayer he or she has
          90 days to respond or the additional taxes will be assessed.
          A taxpayer may also receive a Statutory Notice of
          Deficiency if he or she disagrees with the proposed
          assessment but does not provide the IRS with enough
          information to support the disagreement. See Appendix V
          for a flowchart of the AUR Program process.
          The EITC income verification test was designed to help the
          IRS identify ways to ensure taxpayers claiming the EITC
          properly report their income. Accuracy of income reporting
          is critical to the accuracy of the EITC claimed since the
          credit is limited to certain income levels. Initially, the IRS
          planned to select 175,000 taxpayers for the test. However,
          due to changes in the certification of qualifying child
          residency requirements test, the number of returns was
          expanded to 300,000 taxpayers. The FY 2004 test involved
          TY 2002 returns.
          We conducted this audit in the IRS W&I Division
          Headquarters in Atlanta, Georgia. We also conducted
          testing in the Atlanta, Georgia; Fresno, California; and
          Austin, Texas, AUR Program sites. We conducted our
          testing during the period August 2004 through
          February 2005. The audit was conducted in accordance
          with Government Auditing Standards. Detailed information
          on our audit objective, scope, and methodology is presented
          in Appendix I. Major contributors to the report are listed in
          Appendix II.

          2
              The IRS refers to this as a CP 2000 notice.
                                                                 Page 3
                          The Earned Income Tax Credit Income
                         Verification Test Was Properly Conducted

                                   The IRS established a new set of business rules to classify
Cases Were Properly Classified
                                   and select taxpayers for the income verification test. Our
and Accurately Selected Based
                                   analysis showed cases were properly classified and
Upon Established Business Rules
                                   accurately selected for the test based on those business
                                   rules.
                                   Compliance problems with the EITC are not new to the
                                   AUR Program. Potential changes to the EITC were always
                                   considered as part of the IRS’ process to resolve income
                                   discrepancies. However, the IRS did not separately select
                                   cases with EITC claims. The IRS established new business
                                   rules for the income verification test and a separate
                                   population of EITC cases was created.
                                   The IRS had several business objectives for this test.
                                   •   Separately identify EITC cases.
                                   •   Identify repeat offenders that underreport income to
                                       claim the EITC.
                                   •   Identify cases with the highest potential assessments.
                                   •   Gather baseline data for future case selections.
                                   To meet these objectives, the IRS developed a set of
                                   business rules to classify and select AUR Program EITC
                                   cases. First, the IRS created a separate segment or file that
                                   contained all TY 2002 AUR Program cases in which the
                                   EITC had been claimed. There were a total of
                                   915,087 cases in this file for TY 2002. It then analyzed
                                   historical AUR information for TYs 1999 through 2001 to
                                   determine if taxpayers had repeatedly underreported their
                                   income. The IRS grouped these taxpayers into four classes.
                                   (1) Egregious Repeaters – Prior history of being selected
                                   and worked in the same AUR Program category for at least
                                   2 of the 3 prior tax years, and the cases resulted in additional
                                   tax assessments in both years.
                                   (2) Repeater Worked – Prior history of being selected and
                                   worked by the AUR Program in at least 1 of the 3 prior tax
                                   years.




                                                                                            Page 4
 The Earned Income Tax Credit Income
Verification Test Was Properly Conducted

          (3) Repeater Not Worked – Prior history of underreporting
          income for at least 1 of the 3 prior years, and the AUR
          Program did not select the taxpayer during this period.3
          (4) Other – No prior history of being identified by the AUR
          Program.
          The IRS established criteria to select cases for the test from
          these four classes. The criteria were designed to include
          potential repeat offenders, cases with the highest potential
          EITC assessment, and cases selected at random that would
          be used to develop a baseline. Figure 2 shows, by class, the
          numbers of taxpayers classified and selected for the income
          verification test.
                 Figure 2: Number of Taxpayers Selected for the Income
                                  Verification Test

                               Total              Cases         Percentage
               Class         Inventory           Selected        of Total
              Egregious          818               818               100
              Repeater
              Repeater        100,342            64,007              64
              Worked
            Repeater          119,272            61,399              51
           Not Worked
               Other          694,655            173,776              25
               Grand          915,087            300,000             33
               Totals
          Source: IRS W&I Compliance Division.

          We selected a judgmental sample of 100 cases (25 cases
          from each of the classes) and obtained historical information
          for TYs 1999 through 2002 to verify whether each of the
          cases was properly classified and selected according to the
          IRS’ selection rules. Our analysis showed that 99 of the
          100 cases were properly classified and accurately selected.
          One case was erroneously classified in the Repeater Worked
          class. The misclassification resulted when the tax examiner


          3
            Each year, the AUR Program identifies many more underreporter cases
          than can be selected and worked by IRS staff.
                                                                       Page 5
                         The Earned Income Tax Credit Income
                        Verification Test Was Properly Conducted

                                  did not recognize that additional taxes had been assessed in
                                  a case that involved a recomputed Statutory Notice of
                                  Deficiency. The IRS has to issue a revised or recomputed
                                  Statutory Notice of Deficiency when a taxpayer is able to
                                  show that part of the discrepancy and corresponding
                                  proposed assessment is incorrect. The IRS plans to correct
                                  this oversight in its selection process before selecting cases
                                  for the FY 2006 income verification test.4
                                  It is important the IRS accurately and timely process cases
Cases Were Accurately and
                                  in the income verification test to ensure taxpayers involved
Timely Processed
                                  in the test do not experience any more burden than is
                                  necessary. Our analysis of cases in the test indicates the
                                  IRS accurately and timely processed AUR Program EITC
                                  cases.
                                  The IRS used the same processes and procedures to work
                                  cases in the income verification test that it uses for all
                                  AUR Program cases. As of January 31, 2005, the IRS had
                                  made additional assessments totaling $248 million for about
                                  213,000 taxpayers because their EITC was either eliminated
                                  or reduced during the test.5 Additional taxes totaling about
                                  $130 million6 resulting from changes to the income reported
                                  by these taxpayers were also assessed. 7
                                  We selected a statistical sample of 130 cases from the
                                  300,000 cases in the test to verify whether changes to the
                                  EITC and additional taxes were accurate. We eliminated
                                  13 of the 130 cases because they had been closed without
                                  action.8 We determined the IRS correctly computed the
                                  proposed tax and credit changes in 109 (93 percent) of the
                                  remaining 117 cases. In addition, assessments posted


                                  4
                                    At the time we advised the IRS of the error, case selections had already
                                  been made for the FY 2005 income verification test.
                                  5
                                    In a small number of cases, the changes resulted in a higher EITC.
                                  The amount shown represents the net amount of assessments resulting
                                  from the EITC being reduced or eliminated.
                                  6
                                    This includes interest and penalties, if applicable, less any additional
                                  withholding due the taxpayers.
                                  7
                                    In a small number of cases, the changes resulted in a lower tax
                                  liability. The amount shown represents the net amount of additional
                                  taxes assessed.
                                  8
                                    We did not review cases closed without action, other than those that
                                  were closed because they were below the IRS’ tolerance.
                                                                                                    Page 6
 The Earned Income Tax Credit Income
Verification Test Was Properly Conducted

          accurately to the IRS Individual Master File9 in all 86 cases
          in which the taxpayer either had agreed to the proposed
          changes or had not responded to the Statutory Notice of
          Deficiency. The accuracy rate we identified is similar to the
          overall accuracy rate for the AUR Program. In addition,
          only 2 of the 8 errors we identified affected the taxpayer’s
          EITC.
          An AUR case can take several months to resolve depending
          upon the number and type(s) of notices issued, how quickly
          taxpayers respond, and the amount of time the IRS takes to
          process those responses. To ensure the process moves as
          quickly as possible, the IRS has established time standards.
          These include standards for replying to taxpayer
          correspondence, issuing the Statutory Notice of Deficiency,
          making assessments subsequent to the Statutory Notice of
          Deficiency, and making assessments after taxpayer
          agreement to the proposed tax and credit changes.
          Specifically:
          •   The IRS must initiate a response to a taxpayer within
              30 calendar days of the receipt of taxpayer
              correspondence.
          •   Issuance of a Statutory Notice of Deficiency must be
              initiated within 30 calendar days after the time period
              allowed for taxpayers to respond to the CP 2000 notice
              has expired.
          •   When a taxpayer does not respond to the Statutory
              Notice of Deficiency within the time allowed, the
              additional taxes must be assessed within 30 calendar
              days of the expiration of that time. Conversely, if a
              taxpayer responds and agrees to the proposed changes,
              the additional taxes are to be assessed within 30 calendar
              days of receipt of the taxpayer’s agreement.
          We used the same statistical sample of 130 cases from our
          accuracy test to verify whether the IRS met these timeliness
          standards. We eliminated 20 of the 130 cases because



          9
            The IRS database that stores various types of taxpayer account
          information. This database includes individual, business, and employee
          plans and exempt organizations data.
                                                                         Page 7
                           The Earned Income Tax Credit Income
                          Verification Test Was Properly Conducted

                                    taxpayer contact by the IRS had not been necessary.10 The
                                    IRS met the timeliness standards in 106 (96 percent) of the
                                    remaining 110 cases.
                                    While the IRS accurately identified and selected cases for
Problems Tracking and
                                    the income verification test and processed those cases
Reporting Interim Test Results
                                    accurately and timely, we identified inaccuracies in a new
Were Resolved
                                    tool the IRS created to monitor and track the interim results
                                    of the test. However, these inaccuracies will not affect the
                                    final results of the current test or future tests.
                                    The IRS plans to use the Enforcement Revenue Information
                                    System (ERIS)11 to formally report the results of the income
                                    verification test. However, there was a need to develop an
                                    interim reporting process because data from the ERIS would
                                    not be available for several months after the test started.
                                    This new tool, the EITC AUR Case Tracking Report,
                                    tracked the results of the income verification test on a
                                    weekly basis. The Case Tracking Report provided details of
                                    the test for each of the three AUR Program sites. It also
                                    showed results by each of the 57 AUR Program categories
                                    and 7 subcategories.
                                    The Case Tracking Report provided the IRS a way to keep
                                    current on the test results and allowed it to determine which
                                    categories were more likely to result in changes to EITC
                                    claims.
                                    According to the Government Accountability Office (GAO)
                                    Standards for Internal Control in the Federal Government,12
                                    an entity must have relevant, reliable, and timely
                                    communications relating to internal as well as external
                                    events for it to run and control its operations. We evaluated
                                    the Case Tracking Reports for overall accuracy and
                                    identified some inconsistencies.
                                    •    The total number of cases in the income verification test
                                         shown on the Reports did not agree with what was



                                    10
                                       These cases were closed without action, indicating the IRS did not
                                    need to correspond with the taxpayer to resolve the income discrepancy.
                                    11
                                       The ERIS is a cross-functional database that tracks the amount and
                                    timing of revenue from all IRS enforcement actions.
                                    12
                                       GAO/AIMD-00-21.3.1 (November 1999).
                                                                                                   Page 8
                        The Earned Income Tax Credit Income
                       Verification Test Was Properly Conducted

                                      included in the August 2004 preliminary report to the
                                      Congress. 13
                                 •    The number of cases closed without action on the
                                      Reports did not match the number of cases reported to
                                      the Congress.
                                 •    The total proposed decreases in EITC claims were
                                      significantly different from the amounts shown for each
                                      income category. The proposed decreases in EITC
                                      claims are the estimated EITC changes the IRS expects
                                      to make.
                                 While the last item was not part of the IRS’ preliminary
                                 report to the Congress, the EITC Office used it to keep
                                 current on the test results.
                                 Management Actions: When we informed the IRS of these
                                 inconsistencies, it indicated that, while it was aware the
                                 Case Tracking Report contained errors, it had been unable
                                 to look into the problems in detail. However, the IRS
                                 indicated the ERIS will be used to report the final test
                                 results. The ERIS has been used by the IRS for a number of
                                 years and tracks the amount and timing of revenue from all
                                 IRS enforcement actions. The IRS also subsequently
                                 advised us the ERIS can now provide timely data for the
                                 FY 2005 test. Therefore, the Case Tracking Report will no
                                 longer be used.
                                 The IRS used the information it gathered from the
Test Results Were Used in the
                                 FY 2004 test to make several key changes to its FY 2005
Planning and Implementation of
                                 test. These included modifying the selection of cases to
the Fiscal Year 2005 Test
                                 improve productivity, identifying and addressing the issue
                                 of stolen identity, and separating certain self-employed
                                 taxpayers claiming the EITC into a segment that will be
                                 worked separately.
                                 Improving case selection to increase productivity
                                 It is important that the IRS be able to select the most
                                 productive cases for the EITC AUR test so it can use its
                                 limited resources as efficiently as possible. The IRS was
                                 able to use information gathered from the FY 2004 test to

                                 13
                                  IRS Earned Income Tax Credit (EITC) Initiative, Status Report to the
                                 Congress – Department of the Treasury - Internal Revenue Service.
                                                                                               Page 9
 The Earned Income Tax Credit Income
Verification Test Was Properly Conducted

          make significant changes to its FY 2005 test that should
          improve the productivity of the cases selected for review.
          In the FY 2004 test, the IRS was unable to accurately
          determine the potential EITC change and consider it in the
          total revenue impact of AUR Program EITC cases. The IRS
          was able to use the results of the FY 2004 test to add several
          new data entries for each EITC case to its analysis. This
          enabled the IRS to significantly improve the case selection
          process by calculating the total revenue impact for each
          case, as well as its estimated potential assessment amount.
          These calculations were built into the selection tool to
          identify the most productive cases for the FY 2005 test. The
          IRS estimates that potential assessments for the FY 2005
          test will total approximately $413 million.
          The FY 2004 test also showed that the selection of cases
          from certain AUR Program categories resulted in little or no
          change to the EITC. Selection from those categories was
          eliminated for the FY 2005 test. The IRS also compared
          FY 2004 test results to prior AUR Program statistics,
          including 5-year baseline rates for cases closed without
          action and cases in which the potential income discrepancy
          was resolved prior to contacting the taxpayer, and used this
          comparison to identify the most productive AUR Program
          categories for the FY 2005 test.
          Assessing the impact of stolen identities
          The IRS discovered in the FY 2004 test that a significant
          number of taxpayers were claiming stolen identity as the
          reason their income had not been reported. Through
          September 4, 2004, the IRS reported that almost 20,000 of
          the taxpayers in the test had claimed stolen identity.
          Recognizing this was a significant issue, the IRS performed
          in-depth analysis to identify certain common characteristics
          such as the geographic location of the taxpayers, tax
          preparers used, and employers. Actions are being taken by
          the IRS in the FY 2005 test to address the validity of stolen
          identity claims.
          Validating large deductions taken by self-employed
          taxpayers
          The IRS determined a significant number of
          self-employed taxpayers reporting large gross receipts from
                                                                Page 10
 The Earned Income Tax Credit Income
Verification Test Was Properly Conducted

          a business on Profit or Loss From Business (Schedule C,
          Form 1040) were able to claim the EITC. These taxpayers
          were claiming enough deductions to reduce their net income
          to satisfy the limitations for receiving the EITC. For
          FY 2005, the IRS has selected cases of this type and
          assigned them to be examined.
          Management’s Response: The IRS indicated it was taking a
          number of steps to reduce erroneous EITC payments and
          was pleased the verification of income test has proven so
          effective. The IRS was also pleased our review recognized
          verification of income through the AUR Program as an
          effective enforcement tool that promotes compliance and
          protects revenue.




                                                            Page 11
                                The Earned Income Tax Credit Income
                               Verification Test Was Properly Conducted

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) properly classified, selected, and processed test cases and accurately summarized and
reported the results of the Fiscal Year (FY) 2004 Earned Income Tax Credit (EITC) income
verification test. To accomplish our objective, we:
I.       Determined whether the IRS accurately classified and selected taxpayers for the income
         verification test based upon the four EITC classes established by the IRS.
         A. Obtained the detailed selection criteria for each of the four EITC classes.
         B. Selected a judgmental sample of 25 cases from each of the 4 EITC classes from the
            test population of 300,000 cases.1
         C. Retrieved historical taxpayer account information from the IRS Integrated Data
            Retrieval System (IDRS)2 and Automated Underreporter (AUR) System3 for each of
            the cases selected to verify whether each case had been properly classified and
            selected.
II.      Determined whether AUR Program EITC cases were properly processed.
         A. Interviewed a key IRS official associated with the income verification test and
            reviewed IRS procedures to identify the procedures used in processing test cases to
            determine whether any new or special procedures were created for the test.
         B. Selected a statistical sample of 130 cases from the test population of 300,000 cases.4
         C. Obtained historical taxpayer account information from both the IDRS and AUR
            System for each of the 130 cases selected to verify whether the proposed changes to
            income taxes and credits were calculated properly. We also verified whether


1
  A judgmental sample of each of the four EITC classes was used based upon the availability of limited audit
staffing resources. A much larger sample of over 400 cases would have been required for a statistical sample from
each of the classes.
2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
3
  The IRS computer system used to take data from individual tax returns for comparison to data from information
returns reported by payers. Once a discrepancy is identified and an AUR Program case created, the AUR System is
used to process the cases through to closure that may include the generation of notices of proposed assessments and
eventual tax assessments that are posted to taxpayer accounts.
4
  We used a statistical sample that was selected from the total population of 300,000 cases rather than stratifying the
sample over each of the 4 EITC classes. Statistical sampling was used to allow for the projection our audit results to
the population of 300,000. Cases were selected using a 95 percent confidence level, an 8 percent expected error
rate, and a +/- 4.75 percent precision level.
                                                                                                              Page 12
                               The Earned Income Tax Credit Income
                              Verification Test Was Properly Conducted

             assessments were accurately posted to the IRS Individual Master File5 for those
             taxpayers who either agreed to the proposed assessment or did not respond to the
             statutory notice of deficiency.
         D. Obtained historical taxpayer account information from the AUR System for each of
            the 130 cases selected to determine whether the IRS took timely actions to respond to
            taxpayer correspondence, issued statutory notices of deficiency, and made tax
            assessments in those cases in which either the taxpayers agreed with the proposed
            assessments or did not respond within the time periods allowed by the Statutory
            Notices of Deficiency.
III.     Determined whether the IRS accurately summarized and reported the results of the
         income verification test.
         A. Identified the IRS reports used to track and report both interim and final test results.
         B. Evaluated the overall accuracy of the EITC AUR Case Tracking Reports by
            calculating whether individual totals agreed with overall totals for certain report line
            items, such as the number of screened out6 and no change7 cases, and with the overall
            reported total test inventory of 300,000 cases.
IV.      Determined what steps the IRS is taking or could take to identify any trends from the
         FY 2004 income verification test and how that information was being or could have been
         used for the FY 2005 test.
         A. Discussed with a key IRS official associated with the income verification test what
            types of analyses were being made of the results from the FY 2004 test and what
            actions were being or will be taken based upon that analysis.
         B. Obtained copies of IRS reports illustrating the various analyses of the FY 2004 test
            results and the actions the IRS was taking for the FY 2005 test based upon the
            information gathered from those analyses.




5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
6
  Each AUR Program case selected goes through a screening process to determine if the potentially unreported
income may have been reported but on the wrong line of the tax return or if the discrepancy can be otherwise
explained without having to contact and ask the taxpayer for an explanation. If it can be resolved in this process, no
further action is taken and the case is “screened out.”
7
  If, after notifying a taxpayer of a potential discrepancy, the tax examiner determines discrepancies do not exist
based upon taxpayer explanations, the case is closed without any additional tax or credit changes and is referred to
as a “no change” case.
                                                                                                             Page 13
                         The Earned Income Tax Credit Income
                        Verification Test Was Properly Conducted

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
John L. Hawkins, Lead Auditor
Areta G. Heard, Senior Auditor
Nelva A. Usher, Auditor




                                                                                         Page 14
                        The Earned Income Tax Credit Income
                       Verification Test Was Properly Conducted

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:EITC
Director, Earned Income Tax Credit Strategic Operations, Wage and Investment Division
SE:W:EITC
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 15
                                  The Earned Income Tax Credit Income
                                 Verification Test Was Properly Conducted

                                                                                 Appendix IV


                       Treasury Inspector General for Tax Administration
                         and Government Accountability Office Reports
                    on the Earned Income Tax Credit Proof of Concept Tests

The Treasury Inspector General for Tax Administration (TIGTA) and the Government
Accountability Office (GAO) have conducted a number of reviews of the Internal Revenue
Service Earned Income Tax Credit Proof of Concept Tests. Listed below are the reports that
have been issued.
TIGTA Reports1
Management Controls Over the Proof of Concept Test of Earned Income Tax Credit
Certification Need to Be Improved (Reference Number 2004-40-032, dated December 2003).
The Risk of Inaccurate Computer Changes Can Be Reduced in Future Tests of the Earned
Income Tax Credit (Reference Number 2004-40-089, dated April 2004).
The Statistical Sampling Method Used in the Earned Income Tax Credit Proof of Concept Test
Appears Valid (Reference Number 2004-40-100, dated May 2004).
Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests Provide Insight
on Ways Taxpayer Burden Can Be Reduced in Future Tests (Reference Number 2005-40-006,
dated October 2004).
GAO Reports2
Earned Income Credit: Qualifying Child Certification Test Appears Justified, but Evaluation
Plan Is Incomplete (GAO-03-794, dated September 2003).
Earned Income Credit: Implementation of Three New Tests Proceeded Smoothly, But Tests and
Evaluation Plans Were Not Fully Documented (GAO-05-92, dated December 2004).




1
    Copies of these reports can be obtained at www.treas.gov/tigta/.
2
    Copies of these reports can be obtained at www.gao.gov.
                                                                                       Page 16
                               The Earned Income Tax Credit Income
                              Verification Test Was Properly Conducted

                                                                                                   Appendix V


                        The Automated Underreporter Program Process

The Internal Revenue Service (IRS) identifies taxpayers that misreport their income through an
annual matching program known as the Automated Underreporter (AUR) Program. The
AUR Program compares the information reported by third parties, such as employers and banks,
with what was reported by taxpayers on their individual income tax returns. Tax examiners at
the AUR Program sites initially analyze each case through a screening process to determine if
the discrepancy can be resolved without contacting the taxpayer. If the discrepancy can be
resolved in this process, no further action is taken and the case is closed. If the discrepancy
cannot be explained, the IRS will send the taxpayer a notice asking for an explanation.
                             Flowchart of the AUR Program Process1




Source: Treasury Inspector General for Tax Administration analysis of IRS processes.


1
  The IRS Master File is a database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                           Page 17
   The Earned Income Tax Credit Income
  Verification Test Was Properly Conducted

                                             Appendix VI


Management’s Response to the Draft Report




                                                  Page 18
